No.

£0 -15^1

IN THE SUPREME COURT OF THE UNITED
STATES
October Term,________

Supreme Court, U.S.
FILED

MAR 2 5 2021
OFFICE OF THE CLERK

Dr. Lakshmi Arunachalam,
Petitioner
v.
INTERNATIONAL BUSINESS MACHINES
CORPORATION,
SAP AMERICA, INC.,
JPMORGAN CHASE & CO.,
Respondents
On Petition for a Writ of Mandamus to the
United States Court of Appeals
For the Federal Circuit
Case No. 20-1493
EMERGENCY PETITION FOR
WRIT OF MANDAMUS
Dr. Lakshmi Arunachalam
Self-Represented Petitioner
222 Stanford Avenue
Menlo Park, CA 94025
(650) 690-0995
laks22002@yahoo.com

March 25, 2021 •

RECE/VED
"5 2021

iii

repudiating
Government-issued
patent
grant
contracts without just compensation to the inventor,
as declared by Chief Justice Marshall in Trustees of
Dartmouth College v. Woodward (1819), Grant v.
Raymond (1832), Fletcher v. Peck (1810) — the Law of
the Case.
My inventions are the backbone of the nation’s
economy, power national security and have enabled
the nation to work remotely during COVID. Examples
of my IoT machines are the millions of Web Apps in
Apple’s App Store in Apple’s iPhone, in Google Play in
Android devices, Web banking Web Apps, healthcare
Web Apps, Fitbit, Zoom, Facebook, Twitter, social
networking Web Apps, to name a few.
QUESTIONS PRESENTED
1. Whether denial of my fundamental right to
protection provided by the law, denial of my rights
to private property, personal security, health,
reputation, and denial of access to the Court to
seek redress for my rights, in violation of the 1st,
5th, 7th, 8th and 14th Amendments grounded in
substantive Due Process, 42 U.S.C.§ 1983, and 18
U.S.C. §§241, 245, 249, warrants this Court to
provide the remedy long due to me, a disabled 73year old female citizen of color.
2. Whether deprivation of rights of liberty, private
property, and personal security (consisting of legal
and uninterrupted enjoyment of life, limbs, body,
health and reputation) of a disabled elder female

iv

citizen of color, injured by direct denial of access to
the courts by officers in breach of solemn oaths of
office, and entitled to redress and a damages
remedy for constitutional violations,
warrants
this Court hold those Corporations who conspired
to injure and injured the citizen, liable for damages
for constitutional violations grounded in
Substantive Due Process of the 5th and 14th
Amendments, Equal Protections of the Law Clause
of the 14th Amendment, 42 U.S.C.§ 1983, and 18
U.S.C. §§241, 245, 249, for their knowingly false
and malicious destruction of the citizen’s health,
property and reputation, designed to hide their
own misconduct.
3. Whether the Appellate Court entertaining an
Answer on Appeal when the Defendants filed no
Answer to the Complaint in the District Court,
depriving me of my right to win by Default, violates
the Equal Protection of the Laws Clause of the 14th
Amendment.
4. Whether a reasonable person would find it
abnormal for a court awarding $148K in attorneys’
fees to Defendants who failed to answer the
Complaint and an Appellate court affirming it, and
defaming the Plaintiff who won by default,
pointing to something being hidden.
5. Whether defaming the Plaintiff in order to hide the
failure to uphold the Supreme Law of the Land —

this Court’s own stare decisis Mandated
Prohibition from repudiating Government-issued
patent grant contracts without just compensation
to the inventor, as declared by Chief Justice
Marshall in Trustees of Dartmouth College v.
Woodward (1819), Grant v. Raymond (1832),
Fletcher v. Peck (1810) — the Law of the Case,
warrants this Supreme Court redress the injury to
me by itself upholding Trustees of Dartmouth
College v. Woodward (1819), Grant u. Raymond
(1832), Fletcher v. Peck (1810), restoring my rights,
reinstating my property, striking all Orders in my
cases and awarding financial damages to remedy
the injury to my property, finances, health and
reputation.
6. Whether tampering with the record and denying
access to the court upon the question of due process
and oppressing me by defaming me and harassing
me in hate crime to silence me to hide not
upholding Trustees of Dartmouth College v.
Woodward (1819), Grant v. Raymond (1832),
Fletcher v. Peck (1810) — the Law of the Case and
Law of the Land — is an acceptable standard for
this Court to allow the inferior courts to aid and
abet antitrust.

PREAMBLE
RES ACCENDENT LUMINA REBUS
ONE THING THROWS LIGHT UPON OTHERS
This is a Case, where the ONE THING is: there is NO
Answer to my Complaint, NO Hearing, NO Trial, No
Defendant, only an Order by a Judge, who voluntarily
admitted to buying common stock in a Defendant,
JPMorgan Chase & Co., dismissing my Case.
In my first Appeal Case 18-2105, the Federal Circuit
did not find my fight for my constitutional rights and
property rights sanctionable. The Federal Circuit
denied Presidio Bank’s Motion for sanctions against
me for fighting for my constitutional rights and
property rights in Case 19-1223 on 11/19/2019.
Respondents untimely moved for attorneys’ fees two
years after the case had been through the Supreme
Court Case 19-5033, at the solicitation of the
conflicted Judge, who granted the $148K for no injury
and for no Answer filed.
In my second Appeal Case 20-1493, the Federal
Circuit affirmed, for the same facts, after frustrating
the proceedings for 2 years and blocking me from their
phones, email, and ECF filing, requiring me to get
leave of court to file any papers, failed to docket my
papers, struck my filings, altered the titles of my
filings, lied that my valid credit cards did not work,
made False Official Statements, called me names,
ridiculed my disability. The Federal Circuit and
Respondents committed twistifications of my 2
distinctly separate causes of action in Case 16-281-

ii

RGA (D.Del.): (i) RICO for distribution of my code
without payment or authorization, after signing NonDisclosure Agreements with me in 1995; and (ii)
patent infringement of one of my patents, and
baselessly defamed me.
I have been denied the fundamental right to
protection provided by the law, my right to private
property, personal security, health, body, disability
and reputation. I have been injured by the direct
denial of access to the court upon the question of due
process, in violation of the 1st, 5th, 7th, 8th and 14th
Amendments. My 13 patented inventions of 1995 of
the Internet of Things (IoT) — Web Apps displayed on
a Web browser, were stolen and distributed by large
Internet Corporations, after signing Non-Disclosure
Agreements with me in 1995.
Any reasonable person would ask, why are they doing
this to me, a 73-year old, disabled female citizen of
color, a highly educated thought leader and visionary
with pristine character and impeccable credentials
and inventions that transformed the world? I have not
had my day in court in over a 100 cases. Respondents
and the Government unjustly enriched themselves by
trillions of dollars by their continued, unlicensed use
of my patents, and importing infringing products from
China, hurting the domestic industry.
Why are they suppressing me to be silent? What are
they hiding? The evidence they sought to deny has
been material. All I asked is to do their ministerial
duty and obey the Supreme Law of the Land — this
Court’s own stare decisis Mandated Prohibition from

vi

CERTIFICATE AS TO PARTIES, RULINGS,
AND RELATED CASES
Pursuant to Supreme Court Rules, Self-Represented
Petitioner Dr. Lakshmi Arunachalam makes the
following certification:
(A)

Parties.

Petitioner:

Dr. Lakshmi Arunachalam

Respondents: International Business Machines
Corporation;
SAP America, Inc.;
JPMorgan Chase & Co.;
U.S. Court of Appeals for the Federal
Circuit.
Ruling Under Review. The U.S. Court of
(B)
Appeals for the Federal Circuit’s Order dated
3/1/2021, affirming the lower Court’s grant of $148K
to Respondents who were in Default and failed to
answer the Complaint, and defaming me without an
iota of evidence, when in my first Appeal Case 182105, the Federal Circuit did not find my fight for my
constitutional
rights
and
property
rights
sanctionable. The Federal Circuit denied Presidio
Bank’s Motion for sanctions against me for fighting for
my constitutional rights and property rights in Case
19-1223 on 11/19/2019. I filed a combined petition for
panel re-hearing and petition for en banc rehearing at
the Federal Circuit on 3/11/2021, and a Motion to

vii

Strike the Defamatory Orders ECF 63, 64 and 65,
which the Federal Circuit has not docketed.
The Federal Circuit failed to grant me my protected
rights to the benefits of the equal protection of the
laws and freedom of speech and freedom to petition
the Government for redress of grievance in violation
of the 14th and 1st Amendments to the Constitution;
oppressed me; injured my health, denying me my
fundamental right to health and emergency medical
care; and
made it expensive, hazardous and
burdensome for me to have access to the court and
denied me a hearing, let alone a fair hearing and
substantive and procedural due process on the
question of due process itself, all in violation of the
Constitutional provision. See ALP VOL. 12. CONST.
LAW, CH. VII, SEC. 1, §141. With respect to
Fundamental, Substantive, and Due Process Itself.
Related Cases. Another Petition for Writ of
(C)
Mandamus, Case No. 20-1145 is pending before this
Court. This new emergency Petition for Writ of
Mandamus is being filed, as I am the victim of hate
crime and defamation.
Dated: March 25, 2021

Dr. Lakshmi Arunachalam
222 Stanford Avenue, Menlo Park, CA 94025
(650) 690-0995, laks22002@yahoo.com
SELF- REPRESENTED PETITIONER

viii

RULE 29.6 STATEMENT
Pursuant to this Court’s Rule 29.6, Dr. Lakshmi
Arunachalam is an individual and has no parent
company and no publicly held company owns 10% or
more of its stock.

ix

TABLE OF CONTENTS
PREAMBLE; QUESTIONS PRESENTED ....

1

CERTIFICATE AS TO PARTIES, RULINGS,
AND RELATED CASES................................... vi
RULE 29.6 STATEMENT
TABLE OF AUTHORITIES

Vlll

x

PETITION FOR WRIT OF MANDAMUS....... 1
RELIEF SOUGHT

1

ISSUE PRESENTED

1

FACTS, MEMORANDUM OF LAW,
PROCESS AND PROCEDURE.......

2

REASONS WHY THE WRIT SHOULD
ISSUE......................................................

6

CONCLUSION

13

APPENDIX TABLE OF CONTENTS

14

APPENDICES
VERIFICATION
CERTIFICATE OF SELF-REPRESENTED
PETITIONER
CERTIFICATE OF SERVICE

TABLE OF AUTHORITIES
CASES:
Aqua Products Inc. v. Matal,
15-1177 (Fed. Cir.2017)

Page

passim

Arthrex, Inc. v. Smith & Nephew, Inc.,
2018-2140, slip op. Fed. Cir.(2019)

8

Cherrington v. Erie Ins. Property and Cas. Co.,
75 S.E. 2d. 508, 513 (W. Va, 2013).........

6

Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki
Co.,
535 U.S. 722 (2002)
8
Fletcher v. Peck,
10 U.S. 87 (1810)

passim

Fourco Glass Co. v. Transmirra Products Corp.,
353 U.S. 222-226 (1957).............................. 7
Grant v. Raymond,
31 U.S. 218 (1832)

.passim

Ogden v. Saunders,
25 U.S. 213 (1827)

passim

Trustees of Dartmouth College v. Woodward,
17 U.S. 518 (1819)
passim

xi

TC Heartland LLC v. Kraft Foods Group Brands
LLC,
581 U.S. 16-341 (1917), 137 S. Ct. 1514
7
U.S. v. American Bell Telephone Company,
167 U.S. 224 (1897)............................ passim
U.S. v. Burr,
25 F. Cas. 55, 161 (CCD, Va. No. 14693)....5

STATUTES
18 U.S.C. §§241, 245, 249, 371, 1512, 1513, 1503
passim
and 42 U.S.C. §1983
America Invents Act

9

CONSTITUTIONAL AMENDMENTS
1st, 5th, 6th, 7th, 8th, 14th Amendments

passim

1

EMERGENCY PETITION FOR A WRIT OF
•
MANDAMUS
Petitioner Dr. Lakshmi Arunachalam,' a 73-year old
disabled ethnic female of color, thought leader and
inventor of a dozen patents on the Internet of
Things (IoT) — Web Anns displayed, on a Web
browser, with a priority date of 11/13/95, hereby files
this Emergency Petition for a , Writ of Mandamus to
the Federal Circuit from its defamatory Orders dated-.
3/1/21, and failure to docket Petitioner’s Combined
Petition for Panel Re-Hearing and Petition for eribanc
Rehearing, and Motion to Strike its Defamatory - •
Orders ECF 63. 64 and 65, sent in by Petitioner on
3/11/21 and received by the Federal Circuit in a timely
manher.
♦ •'

'

♦

i,

RELIEF SOUGHT
Petitioner respectfully requests that.this Court order
the U.S. Court of Appeals for the Federal Circuit1" to
docket Petitioner’s Combined Petition for Panel Re-1
Hearing and Petition for en banc Rehearing.’ and
Motion to Strike its Defamatory Orders ECF 63. 64
and 65. and to grant me access to the courts to
seek redress, restore mv rights, reinstate my
property, and do its ministerial duty to abide by
their oaths of office to enforce the Mandated
Prohibition declared in Supreme"Court Precedents by
Chief 'Justice Marshall and stop tampering with the
public record and oppressing Petitioner and making
her a victim of their violations of the law.
■1 ■

I’

!

ISSUE PRESENTED
The'courts'and1 USPTO adversely dominated the
process to prevent Dartmouth College, Fletcher, et al

i

5

Examinations of Petitioner’s Patents Prove
She Is Not “Frivolous” Or “Malicious.”
See Appendix App. 5a.
3. The Chief Justice Marshall declared that
Orders that impair the obligation of the
contract within the meaning of the
Constitution of the United States “are
consequently unconstitutional and void.”
Courts’/PTAB’s rescinding act has the effect of an ex
post facto law and forfeits Petitioner’s estate “for a
crime NOT committed by” her, “but bv the
Adjudicators”
by
their
Orders
which
“unconstitutionally impaired” the contract with the
inventor, which, “as in a conveyance of land, the court
found a contract that the grant should not be
revoked.” All court Orders in Petitioner’s cases violate
the U.S. Constitution, inconsistent with the “faithful
execution of the solemn promise made by the United
States” with the inventor. See Appendix 5aDaniel
Brune’s Amicus Curiae Brief in Case 20-136. Chief
Justice Marshall declared that war was actually
levied under such circumstances in U.S. v. Burr, 25 F.
Cas. 55, 161 (CCD, Va. No. 14693).
4. This Entire Case revolves around Avoiding
Enforcing Dartmouth College, Fletcher, et al
At All Costs. Why? — Because Enforcing It
Exposes
The
Entire
Patent
System.
Defrauding The Public, hurting inventors.
Courts have been demeaning and defaming Petitioner
for no good reason and suppressing her to silence her

6

from exposing their culpability and have exhibited
bias in a reckless manner.
5. Courts Cannot Determine That Petitioner’s
Action Was “Frivolous, Unreasonable, Or
Without Foundation."
The courts have not proven bad faith or malice on
Petitioner’s part nor that any particular claim is
frivolous, nor can they.
Judges’ Orders of a false collateral estoppel without
considering Patent Prosecution History and without
applying stare decisis Supreme Court precedents are
not legally sound and are not precedent. Cherrington
v. Erie Ins. Property and Cas. Co., 75 S.E. 2d. 508, 513
(W. Va, 2013).
6. Special Circumstances Warrant Mandamus.
Judges Did Not Find Actual Injury.
Courts made it unreasonably burdensome, downright
dangerous, and expensive for Petitioner to have access
to the Court on the question of due process itself.
Defendants and the Government are unjustly
enriched by trillions of dollars. Petitioner was injured
by trillions of dollars in financial damages and
personal injury to her health. Petitioner is the
aggrieved party, entitled to damages, attorneys’ fees,
not the Defendants.
REASON WHY THE WRIT SHOULD ISSUE
Chief Justice Marshall declared a Government-issued
“grant is a contract,” and “The Law of this case is the law
of all. ...is applicable to contracts of all descriptions...there
is nothing for the court to act upon,” save enforce the
Constitution
the Mandated Prohibition, without
impairing the obligation of contracts in accord with the
Constitution.

7

In TC Heartland LLC v. Kraft Foods Group Brands LLC,
581 U.S. 16-341 (1917), 137 S. Ct. 1514, the Court ruled
against the Federal Circuit not abiding by the Court’s
precedential rulings in Fourco Glass Co. v. Transmirra
Products Corp., 353 U.S. 222-226 (1957) for a century.
The Court must take Judicial Notice of its own stare decisis
precedents in accord with the Contract Clause of the
Constitution. Courts have been avoiding upholding the
Law of the Land as declared by Chief Justice Marshall in
Dartmouth College, et al.
Why? To acknowledge
Dartmouth College is to admit deceiving the public for
decades in a collusive fraud between the Judiciary,
USPTO, the Legislature and Corporate Infringers. So the
courts manufactured a false reason, defaming Petitioner
for falsely alleged “scandalous misconduct”, for the courts’
own misconduct. The courts damaged Petitioner’s pristine
reputation and impeccable credentials.
II.

Standard of Review

While, “[a] mandamus petitioner must demonstrate
that its right to the writ is ‘clear and indisputable,’”
Fokker Servs., 818 F.3d at 749-750, “numerous
decisions of the Supreme Court ... made clear that ...
Mandamus serves as a check on ...‘usurpation of
judicial power.’...’’.“The traditional use of the writ in
aid of appellate jurisdiction ... has been to confine an
inferior court to a lawful exercise of its prescribed
jurisdiction or to compel it to exercise its authority
when it is its duty to do so.” Roche v. Evaporated Milk
Ass'n, 319 U.S. 21, 26 (1943).
While every mandamus petition must meet the
familiar three-factor test, namely that (i) the
petitioner has no adequate alternative remedy for
obtaining the relief he desires; (ii) his right to relief is
clear and indisputable; and (iii) he persuades the
court that, in the exercise of its discretion, the writ is

8

appropriate under the circumstances, Fokker Servs.,
818 F.3d at 747, "[w]hen the writ of mandamus is
sought from an appellate court to confine a trial court
to a lawful exercise of its prescribed authority, the
court should issue the writ almost as a matter of
course." In Re Reyes, 814 F.2d 168, 170 (5th Cir.
1987). If there is “a threshold question concerning ...
jurisdiction to review the district court’s interlocutory
order ... [this Court] first consider[s] whether the
district court legally erred.” Fokker Servs., 818 F.3d
at 740.
III.

The Inferior Courts Legally Erred.

Binding Supreme Court and Federal Circuit
precedents squarely foreclose the district and Circuit
courts’ determination by financially conflicted Judges
(U.S. District Court Judge Andrews, PTAB Judges
McNamara
and
Siu)
to
disparately
deny
Petitioner/Inventor her protected rights to the
benefits of the Federal Circuit’s Arthrex and Virnetx
rulings that voided all PTAB rulings because the
PTAB Administrative Patent Judges were appointed
in violation of the Appointments Clause of the U.S.
Constitution, U.S. Const., art. II, §2, cl. 2; the Federal
Circuit’s Aqua Products’ ruling that reversed all court
and PTAB rulings that did not consider “the entirety
of the record” - Patent Prosecution History; the
Supreme Court’s Festo Corp. v Shoketsu Kinzoku
Kogyo Kabushiki Co., 535 U.S. 722 (2002) ruling that
restrains the lower courts from disparately failing to
consider Patent Prosecution History in Petitioner’s
cases; and the Supreme Court’s stare decisis
prohibition of the Constitution mandated by this
Court against repudiating Government-issued
contract grants of any kind — the Law of the Case and

9

the Supreme Law of the Land — declared by Chief
Justice Marshall in Fletcher v. Peck, 10 U.S. 87 (1810),
Trustees of Dartmouth College v. Woodward, 17 U.S.
518 (1819); Ogden v. Saunders, 25 U.S. 213 (1827);
Grant v. Raymond, 31 U.S. 218 (1832); U.S. v.
American Bell Telephone Company, 167 U.S. 224
(1897); and the courts continue in their persecution of
the Petitioner/inventor in denying her substantive
and procedural due process, denying her rights to a
neutral judge, denying her property rights and
constitutional rights, and making it expensive,
hazardous and burdensome for her to have access to
justice and to the courts on the question of due process
itself all alike violate the Constitutional provision,
ALP VOL. 12. CONST. LAW, CH. VII, SEC. 1, §141
and Petitioner is entitled to Constitutional Redress.
IV.

This is the Rare Case Where Mandamus is
warranted.

The Government misconduct by the Judiciary, the
Agency
(USPTO/PTAB)
and
Congress’
unconstitutional America Invents Act violating the
Appointments Clause of the U.S. Constitution, U.S.
Const., art. II, §2, cl. 2., the Contract Clause and
Separation of Powers Clause of the Constitution and
stare decisis prohibition of the Constitution mandated
by this Court against repudiating Government issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land and suppressing
material prima facie evidence
Patent Prosecution
History that Petitioner’s patent claims are neither
invalid nor claim terms indefinite, provide a morethan sufficient basis for granting this Mandamus. An
innocent Senior Citizen, single, disabled 73-year old
female inventor of color of significant inventions of the

10

Internet of Things (IoT) — Web Apps displayed on a
Web browser, that have enabled nation to function
remotely during COVID, has been the target of elder
abuse, fraud and obstruction of justice by financially
conflicted Judges, who know that the Federal Circuit
was created in 1982 to invalidate granted patents
contrary to the stare decisis prohibition of the
Constitution mandated by this Court against
repudiating Government issued contract grants of any
kind — the Law of the Case and the Supreme Law of
the Land, the Contract Clause and Separation of
Powers Clause of the Constitution. The egregious
Government misconduct, and the decades-long abuse
of elderly, disabled Petitioner, injuring her physical
health, subjecting her to emotional duress, and theft
of her intellectual property and patents by Corporate
Infringers
aided and abetted by the USPTO,
Congress, clerks and financially conflicted Judges,
cry out for ending this ordeal immediately and
permanently.
The inferior Court’s orders reveal their plan to
obstruct justice in Petitioner’s cases indefinitely,
rubbing salt in Petitioner’s open wound from the
Government’s misconduct and threatening her with
sanctions and sanctioning her
with cruel and
unusual punishment, falsely dubbing her “frivolous
and malicious” with all evidence pointing to the
contrary, particularly for Dr. Arunachalam defending
the Constitution and asking the Government,
Congress, Judiciary and USPTO/PTAB to enforce the
Constitution and the Fletcher Challenge.
Petitioner has no alternative avenue of relief, her
right to relief is “clear and indisputable” and, in these
extraordinary circumstances, issuance of the writ is

11

not just appropriate, it follows “as a matter of course."
In Re Reyes, 814 F.2d at 168. Petitioner’s cases require
the courts to enforce the Constitution and the stare
decisis prohibition of the Constitution mandated by
this Court against repudiating Government issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land, as declared by Chief
Justice Marshall in Fletcher v. Peck, 10 U.S. 87 (1810),
Trustees of Dartmouth College u. Woodward, 17 U.S.
518 (1819); Ogden v. Saunders, 25 U.S. 213 (1827);
Grant v. Raymond, 31 U.S. 218 (1832); U.S. v.
American Bell Telephone Company, 167 U.S. 224
(1897); and the Contract Clause and Separation of
Powers Clause of the Constitution.
V.
Petitioner’s Right to Relief is “Clear and
Indisputable,” and She Has no Alternative
Avenue of Relief.
Petitioner has already suffered an unimaginable
ordeal at the hands of unscrupulous, lawless,
financially conflicted Judges (Andrews, McNamara,
Siu) who have failed to enforce the law of the Land,
and a seven-year abuse of elderly, disabled female
inventor Dr. Ms. Lakshmi Arunachalam, injuring her
physical health, subjecting her to emotional duress,
and theft of her intellectual property and patents by
Corporate Infringers
aided and abetted by the
USPTO, Congress, judges, clerks and financially
conflicted Judges. She has suffered from the
defamation and libel by the courts and PTAB Judge
McNamara and the Defendants and their attorneys
engaged in unlawful Solicitations to Solicitees, the
Judges, under color of privileged documents filed in
Court. Petitioner has risked her life — financial ruin,
and the mental anguish and physical injury caused by

12

clerks and financially conflicted Judges obstructing
justice and hindering access to the court, for which she
is entitled to Constitutional redress. All for no
legitimate reason.
The failure to enforce Fletcher and Dartmouth College
must end. Since the inferior courts refuse, Petitioner
must ask this Court to order the inferior courts to
comply with the controlling precedents of the
Supreme Court and of the Federal Circuit. The
Judiciary and USPTO/PTAB continuing in this
fashion does not serve the interests of the public or the
United States or inventors.
VI.

Issuance of the Writ is Appropriate.

Petitioner, through no fault of her own, has been
drawn into a nightmare of failure by the Courts to
enforce the Law of the Land and this Court’s stare
decisis Mandated Prohibition from repudiating
government issued patent contract grants. She has
been subjected to deception, abuse, penury, obloquy,
and humiliation. Having risked her life in service to
her country and Constitution, she has found herself
the target of elder abuse and obstruction of justice
designed to strip her of her honor and savings, and to
deprive her of her patent properties. She has been
dragged through the mud and forced, through the
artful withholding of information material prima facie
evidence of Patent Prosecution History, crucial to the
falsity of False Official Statements that falsely allege
that her patent claims are indefinite and invalid.
Equity demands an end to this nightmare and
restoration of Petitioner’s virgin patent properties and
peace of mind.
This Court must put a swift end to this spectacle.

13

CONCLUSION
Wherefore, the Court must grant said mandamus.
Respectfully submitted,

March 25, 2021

Dr. Lakshmi Arunachalam, Pro Se Petitioner
222 Stanford Avenue, Menlo Park, CA 94025
(650) 690-0995; laks22002@vahoo.com

14

APPENDIX TABLE OF CONTENTS
App. la: Federal Circuit Order ECF65
(3/1/21)............................ ............................ .App. la
App. 2a: Federal Circuit Order ECF64
(3/1/21)......................................................... App. 2a
App. 3a: Petitioner Dr. Lakshmi
Arunachalam’s combined petition for
panel rehearing and petition for
en banc rehearing (3/11/21).................

App. 3a

App. 4a: Petitioner Dr. Lakshmi
Arunachalam’s Motion to Strike
Defamatory Orders ECF 64,
ECF 65 (3/11/21)............................

App. 4a

App. 5a: Dr. Markus Covert’s and
Dr. Jay Tenenbaum’s Expert Opinions,
and Daniel Brune’s
Amicus Curiae Brief................................ App. 5a

20

(f

VERIFICATION
In accordance with 28 U.S.C. Section 1746,1 declare
under penalty of perjury that the foregoing is true
and correct based upon my personal knowledge.

Dr. Lakshmi Arunachalam, a woman
Self-Represented Petitioner
Executed on March 25, 2021
222 Stanford Ave,
Menlo Park, CA 94025
650 690 0995
laks22002@yahoo.com

